                                                                 Issue Date
                                                                        May 24, 2012
                                                                 Audit Report Number
                                                                        2012-AT-1010




TO:        Charles Franklin, Director, Community Planning and Development Division,
            4CD

           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The Alabama Department of Economic and Community Affairs, Montgomery,
          AL, Did Not Follow Its Neighborhood Stabilization Program Requirements


                                   HIGHLIGHTS

 What We Audited and Why

            We audited the State of Alabama’s Department of Economic and Community
            Affairs’ (grantee) Neighborhood Stabilization Program (NSP1) in Montgomery,
            AL, to assess issues raised in a hotline complaint. The complaint alleged that the
            State of Alabama misused its NSP1 funds by not following the regulations and
            statutes governing the NSP1 program to ensure that it used program funds for
            eligible and supported purposes. The State was awarded a $37 million grant
            authorized under the Housing and Economic Recovery Act of 2008.

            The objective of our audit was to determine whether the grantee properly used its
            NSP1 funds as required by the regulations and statutes governing program income
            and expenditures.

 What We Found


            The grantee did not ensure that it disbursed program income before requesting
            additional program fund withdrawals from the U.S. Treasury. In addition, it did
            not report accurate program income in HUD’s Disaster Recovery Grant Reporting
           system as required by Federal regulations. This condition occurred because the
           grantee relied on its subgrantees to identify and self report the program income as
           it was earned. By not disbursing program income before requesting additional
           program fund withdrawals from the U.S. Treasury, the grantee could not assure
           HUD that it used the appropriate amount of program income before using grant
           funds. As a result, the grantee had grant funds of $304,043 that could be put to
           better use.

           The grantee did not ensure that its subgrantees drew program funds for supported
           expenditures. This condition occurred because the grantee did not require its
           subgrantees to provide supporting documentation when submitting draw requests.
           Without supporting documentation to substantiate the actual expenses, the grantee
           lacked assurance that the expenditures were accurate and program related. As a
           result, the grantee drew $8,540 in grant funds for unsupported expenditures.

What We Recommend


           We recommend that the Director for Community Planning and Development
           require the grantee to (1) use program income of $304,043, or the current amount
           available before drawing additional grant funds from the U.S. Treasury, (2)
           develop and implement policies and procedures to ensure that the grantee
           identifies and tracks program income so that it is used before the grantee requests
           additional cash withdrawals from the U.S. Treasury, (3) reconcile the Disaster
           Recovery Grant Reporting system to accurately reflect the grantee’s use of its
           grant funds and program income, (4) provide supporting documentation for the
           $8,540 charged to its program or repay the U.S. Treasury account from non-Federal
           funds the amount that it cannot support, and (5) develop and implement policies
           and procedures for its disbursement review and approval process.

           For each recommendation in the body of this report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We discussed our review results with HUD, the grantee, and subgrantee officials
           during the audit. We provided a copy of the draft report to the grantee on April
           23, 2012, for its comments and discussed the report with grantee officials at the
           exit conference on May 2, 2012. The grantee provided written comments on May
           3, 2012. It generally agreed with our findings.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.



                                            2
                            TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
      Finding 1: The Grantee Did Not Disburse Program Income Before Requesting    5
      $304,043 of Its Grant Funds
      Finding 2: The Grantee Did Not Ensure That Program Fund Expenditures Were   9
      Adequately Supported

Scope and Methodology                                                             11

Internal Controls                                                                 13

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use              15
   B. Auditee Comments and OIG’s Evaluation                                       16




                                            3
                       BACKGROUND AND OBJECTIVE

The Neighborhood Stabilization Program (NSP1), authorized under Title III of the Housing and
Economic Recovery Act of 2008 implemented actions to stabilize communities affected by
foreclosures and abandonment. The purpose of the program is to provide emergency assistance
to acquire and redevelop abandoned and foreclosed-upon homes. The funding is provided by the
U.S. Department of Housing and Urban Development (HUD). HUD allocated $3.92 billion on a
formula basis to States, territories, and local governments.

On March 11, 2009, HUD awarded an NSP1 grant of $37 million to the State of Alabama’s
Department of Economic and Community Affairs (grantee). The grantee is located in Montgomery,
AL. The NSP1 funds were administered by the grantee as a component of its Community
Development Block Grant program. The grantee selected 11 subgrantees to administer its NSP1
funds. The grantee is responsible for ensuring that each subgrantee fully complies with NSP1
requirements. The program is regulated by HUD and monitored by HUD’s Birmingham Office of
Community Planning and Development.

The grantee’s activity priorities were acquisition and rehabilitation of residential properties and
necessary financing mechanisms. All funds had to be obligated by September 10, 2010, and must
be expended by March 10, 2013. The grantee obligated all of its funds as required. As of
September 30, 2011, the grantee had expended total funds of about $34.6 million. It expended
about $16 million of its funds toward the low-income housing 25 percent set-aside requirement
to purchase and redevelop abandoned or foreclosed-upon homes or residential properties that
will house individuals or families whose incomes do not exceed 50 percent of area median
income.

The audit objective was to determine whether the grantee properly used its NSP1 funds as
required by the regulations and statutes governing program income and expenditures.




                                                  4
                                RESULTS OF AUDIT

Finding 1: The Grantee Did Not Disburse Program Income Before Requesting
$304,043 of Its Grant Funds

The grantee did not ensure that it disbursed program income before requesting additional
program fund withdrawals from the U.S. Treasury. In addition, it did not report accurate
program income in HUD’s Disaster Recovery Grant Reporting system as required by Federal
regulations. This condition occurred because the grantee relied on its subgrantees to identify and
self report the program income as it was earned. By not disbursing program income before
requesting additional program fund withdrawals from the U.S. Treasury, the grantee could not
assure HUD that it used the appropriate amount of program income before using grant funds. As
a result, the grantee had grant funds of $304,043 that could be put to better use.



 The Grantee Did Not Use Its
 Program Income First

               The grantee did not ensure that it disbursed program income before requesting
               additional program fund withdrawals from the U.S. Treasury. As provided in 24
               CFR (Code of Federal Regulations) 85.21, grantees and subrecipients must disburse
               program income before requesting additional cash withdrawals from the U.S.
               Treasury. Federal Register notice FR-5255-N-01, section II N.3, provides that
               substantially all program income must be disbursed for eligible NSP1 activities
               before additional cash withdrawals are made from the U.S. Treasury. HUD’s NSP
               Policy Alert, dated July 13, 2011, further explains that program income works on a
               first-in, first-out basis. It must be used before additional grant funds are drawn
               down.

               In addition, the grantee did not report accurate program income in HUD’s system
               as required by Federal regulations. Federal Register notice FR-5255-N-01,
               section II O.1(b), provides that each grantee must submit a quarterly performance
               report using HUD’s Web-based system. However, the grantee submitted
               inaccurate quarterly performance reports to HUD’s system that understated
               program income received.

               The program income in HUD’s system was understated by more than $1.7 million
               as of September 30, 2011. All five subgrantees earned program income that was not
               accurately reported in HUD’s system. Collectively, the five subgrantees had earned
               more than $2 million in program income as of September 30, 2011. However, the
               quarterly performance report that the grantee recorded in HUD’s system included
               only $271,296 in program income received by these five subgrantees.
               Consequently, HUD’s system understated the program income by more than $1.765
               million, as shown in the table below.


                                                5
                                                                Amount of
               Program income        Program income          program income
                 earned as of           reported in       that was understated
 Subgrantee   September 30, 2011      HUD’s system          in HUD’s system
      1               $ 383,259             $       0                 $ 383,259
      2                   426,122              91,572                    334,550
      3                 1,117,912             111,405                  1,006,507
      4                   104,296              68,319                     35,977
      5                     5,075                   0                      5,075
 Total                $ 2,036,664           $ 271,296                 $1,765,368

While program income was available and understated in HUD’s system by $1.7
million, the grantee improperly withdrew $304,043 from its grant. The remaining
$1.5 million of understated program income did not result in outlays from the
grant, because two of the five subgrantees did not draw additional grant funds
while program income was available. However, three of the five subgrantees had
program income available and did not use it before drawing down additional grant
funds as stated below.


       Subgrantee 1 - The subgrantee overdrew $93,791 from its grant funds.
       The subgrantee’s affiliated nonprofits sold homes from January 12, 2010
       to January 28, 2011, that accumulated $93,791 of program income.
       However, the subgrantee made all draws from its program grant funds and
       did not begin using the program income until a draw in December 2011
       that used $67,683 of its program income. As a result, the subgrantee had
       $93,791 in program income on hand that should have been used before the
       program grant funds.

       Subgrantee 2 - The subgrantee overdrew $113,417 from its grant funds. It
       earned $113,417 in program income from two home sales on February 7 and
       June 30, 2011. The subgrantee incorrectly reported the program income to
       the grantee from the February 7 home sale and it did not disclose any
       program income to the grantee from the June 30 home sale. After earning
       this program income, the subgrantee withdrew $144,627 of its program
       funds, of which $113,417 should have been withdrawn from its program
       income.

       Subgrantee 3 - The subgrantee overdrew $96,835 from its grant funds. It
       earned $96,835 in program income on September 14, 2010. This income
       was not identified and tracked on a timely basis by the grantee, and the
       grantee did not disburse any program income until February 23, 2011.
       However, before using its program income, the subgrantee made two draws
       from its U.S. Treasury program funds totaling $361,377 of which, $96,835
       should have been drawn from the program income it had already earned.


                                6
             The grantee improperly withdrew the grant funds first and did not accurately
             report program income in HUD’s system in a timely fashion because it relied on
             its subgrantees to identify and self report the program income. The grantee’s
             program supervisor stated that the grantee relied on subgrantees to self-report
             program income when it was earned and that was how they intended to make sure
             program income was used first. However, this self-reporting did not work
             because subgrantees delayed or overlooked informing the grantee that program
             income had been received. This activity went undetected because the grantee
             lacked alternative procedures to effectively identify when program income was
             earned to ensure that this income was used first by its subgrantees. Consequently,
             the grantee improperly withdrew $304,043 from its U.S. Treasury grant funds
             before withdrawing its program income on hand.

Corrective Actions Were Taken
During the Audit


             The grantee was responsive to preliminary results we provided to it during the
             audit and began taking corrective action. Grantee and subgrantee officials
             acknowledged that program income had been earned but not disclosed on a timely
             basis and that this income should have been used first. The grantee’s program
             supervisor told us that she had coordinated with HUD Community Planning and
             Development officials to reimburse the grant funds from the program income
             amounts with the next draw requests to be processed for two of the subgrantees
             that had withdrawn grant funds first. The supervisor told us that the third
             subgrantee had no draws pending, so the grantee requested the return of the NSP1
             grant funds from its subgrantee. She told us that the returned NSP1 funds were
             then used as payment toward the next draw request from the subgrantee. These
             corrective measures will require verification by HUD’s Office of Community
             Planning and Development to ensure that they were completed properly.

             The grantee also began developing procedures to track draws from the grant and for
             identifying, tracking, and disbursing program income to ensure that it is used first.
             The grantee’s corrective actions also included revising the financial information
             reported in its quarterly performance reports in the HUD system. These entries
             made during the audit require further review and reconciliation to ensure that the
             HUD system accurately reflects the current amount of program income.


Conclusion


             The grantee did not ensure that it disbursed program income before requesting
             additional cash withdrawals from the U.S. Treasury. In addition, it did not report
             accurate program income in HUD’s system. Program income works on a first-in,
             first-out basis. It must be used before additional grant funds are drawn down.



                                               7
          However, none of the five subgrantees that earned program income accurately
          reported that income in HUD’s system, and three did not use their program income
          before drawing down additional grant funds. This condition occurred because the
          grantee relied on subgrantees to self-report program income when it was earned.
          Consequently, $304,043 in grant funds drawn from the U.S. Treasury should be put
          to better use.

Recommendations



          We recommend that the Director, Office of Community Planning and
          Development, require the grantee to

          1A. Use program income of $304,043, or the current amount available, before
              drawing additional grant funds from the U.S. Treasury.

          1B. Develop and implement policies and procedures to ensure that the grantee
              identifies and tracks program income so that it is used before requesting
              additional cash withdrawals from the U.S. Treasury.

          1C. Reconcile the Disaster Recovery Grant Reporting system to accurately
              reflect the grantee’s use of its grant funds and program income.




                                          8
Finding 2: The Grantee Did Not Ensure That Program Fund
Expenditures Were Adequately Supported
The grantee did not ensure that its subgrantees drew program funds for supported expenditures.
This condition occurred because the grantee did not require its subgrantees to provide supporting
documentation when submitting draw requests. Without supporting documentation to
substantiate the actual expenses, the grantee lacked assurance that the expenditures were accurate
and program related. As a result, the grantee drew $8,540 in grant funds for unsupported
expenditures.



 $8,540 in Expenditures Was
 Unsupported


               The grantee did not administer its grant in compliance with the Housing and
               Economic Recovery Act of 2008 and applicable Federal regulations to ensure that
               subgrantees drew grant funds for supported expenditures. Based on a nonstatistical
               random sample of disbursements to five subgrantees, we determined that one
               subgrantee drew grant funds for unsupported expenditures totaling $8,540. The
               remaining expenditures tested were supported with bank statements, canceled
               checks, vendor invoices, residential home sales contracts, and HUD-1 settlement
               statements when applicable.

               For the subgrantee with the unsupported expenditures, we tested a nonstatistical
               random sample of 11 draws totaling more than $1 million and identified one draw
               with unsupported costs. The draw request totaled $673,285 for property acquisitions
               and acquisition activity delivery expenses.

               The subgrantee did not have sufficient documentation to support $8,540 in
               expenditures. Regulations at 24 CFR 85.20(b)(6) require that expenditures be
               supported with canceled checks, paid bills, payrolls, time and attendance records,
               contract and subgrant award documents, etc. While we were on site, the
               subgrantee could not provide supporting records for the expenditures.

               After we left the subgrantee site, the grantee made additional efforts to locate
               support for the $8,540. The grantee was unable to locate evidence to support
               $2,365 of the $8,540. However, it located and provided partial support for the
               remaining $6,175. The documents and invoices that the grantee provided
               partially supported the draws but required more testing to determine whether the
               supporting invoices were paid in other draws. Therefore, we were unable to
               verify the support for the $8,540.




                                                9
             The grantee did not require subgrantees to submit supporting documentation
             before approving disbursement requests. The grantee’s program supervisor stated
             that they did not want to risk impeding the program’s progress by slowing down
             the draw requests. Instead, the grantee would test expenditures when it performed
             onsite monitoring of its subgrantees. The problem with this procedure was that
             draws made after the monitoring review were not verified. The deficiencies
             created a risk environment that allowed subgrantees to draw grant funds for
             unsupported expenditures.


Conclusion


             The grantee did not ensure that the subgrantees had adequate records to properly
             support their expenditures. This occurred because the grantee did not require its
             subgrantees to provide support such as receipts and invoices, when subgrantees
             submitted draw requests. As a result, the grantee lacked assurance that expenses
             totaling $8,540 charged to the program were accurate.


Recommendations


             We recommend that the Director, Office of Community Planning and Development,
             require the grantee to

             2A. Provide supporting documentation for the $8,540 charged to its program or
                 repay the U.S. Treasury account from non-Federal funds the amount that it
                 cannot support.

             2B. Develop and implement policies and procedures for its disbursement review
                 and approval process.




                                             10
                        SCOPE AND METHODOLOGY

To accomplish our objective, we

       Reviewed and obtained an understanding of relevant Housing and Economic Recovery Act
       of 2008 legislation, the Federal Register, and HUD regulations.

       Researched HUD Federal Register notices, HUD handbooks, and the Code of Federal
       Regulations.

       Researched HUD’s monitoring of its program grantee.

       Researched HUD’s Disaster Recovery Grant Reporting system.

       Researched the grantee’s substantial amendment to the consolidated plan that established
       its program activities and its policies and procedures for properly administering its
       program funds.

       Researched the grantee’s agreements with its program subgrantees and the monitoring of
       its subgrantees.

       Interviewed officials of the Birmingham HUD Office of Community Planning and
       Development, the Alabama Department of Economic and Community Affairs, and its
       subgrantees.

       Reviewed subgrantees’ program records and costs, to include HUD-1 settlement
       statements, deed restrictions, bank statements, canceled checks, and invoice support for
       selected program participants.

The review generally covered the period March 2009 through October 2011. We performed the
review from October 2011through March 2012 at the offices of the grantee in Montgomery, AL;
five of its subgrantees located in Montgomery, Bessemer, Birmingham, Huntsville, and Mobile,
AL; and HUD’s Office of Community Planning and Development. We adjusted the review
period when necessary.

We visited 5 of 11 subgrantees that were responsible for administering the grantee’s program.
The grantee awarded about $7.2 million of its $37 million NSP1 grant to these five subgrantees.
We selected these subgrantees for review because they represented all subgrantees with
agreements designed and intended to earn program income.

As of September 30, 2011,

       Subgrantee 1 had been awarded a $2 million grant and earned $383,259 in program
       income.



                                               11
       Subgrantee 2 had been awarded a $2 million grant and earned $426,122 in program
       income.

       Subgrantee 3 had been awarded a $2 million grant and earned about $1.1 million in
       program income.

       Subgrantee 4 had been awarded a $2 million grant that was later reduced to $475,000 and
       earned $104,296 in program income.

       Subgrantee 5 had been awarded a $3.5 million grant that was later reduced to $750,000
       and earned $5,075 in program income.

We identified and tracked the program income earned for each subgrantee and compared it to
draw requests to determine whether the grantee used program income first. We also performed
tests to assess whether expenditures were eligible and supported by randomly selecting draw
requests of grant funds by each of the five subgrantees. We designed the sample using random,
nonstatistical methods to include draw requests from each of the five subgrantees and all of their
partnering developers. Because our sampling methods were nonstatistical, the results cannot be
projected.

We did not review and assess general and application controls over the grantee’s and its
subgrantees’ information systems. We conducted other tests and procedures to ensure the
integrity of computer-processed data that were relevant to the audit objectives. The tests
included but were not limited to comparison of computer-processed data to written agreements,
contracts, and other supporting documentation. We did not place reliance on the grantee’s and
its subgrantees’ information and used other supporting documentation for the activities reviewed.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                  Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that its resources are used in
                  accordance with laws and regulations.

                  Controls over program operations – Policies and procedures that management
                  has implemented to reasonably ensure that management directives are carried
                  out to effectively meet mission goals and objectives.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 13
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                    The grantee lacked internal controls to ensure that program income was
                    identified, tracked, and disbursed before expenditure of grant funds (see
                    finding 1).

                    The grantee did not have adequate procedures and controls to ensure that its
                    subgrantees’ expenditures were supported (see finding 2).




                                              14
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

              Recommendation           Unsupported 1/       Funds to be put to
                     number                                       better use 2/
                            1A                                       $304,043
                            2A                 $8,540

                          Total                $8,540                $304,043


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the grantee implements
     recommendation 1A, funds can be used for other eligible activities consistent with HUD
     requirements.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         16
              fj fj




Comment 3




            Comment




              17
Comment 3




Comment 3




            18
Comment 3




Comment 4




            19
20
                         OIG Evaluation of Auditee Comments

Comment 1   The hotline complaint was partially substantiated by the results in Findings 1 and
            2. Finding 1 showed that the grantee disbursed $304,043 from its grant to pay for
            program costs when program income was available for use. Finding 2 disclosed
            that $8,540 was disbursed for unsupported expenditures.

Comment 2   While HUD’s upgrade did make changes to reporting program income, the
            grantees have always been able to report program income expended in their
            quarterly performance reports. The new upgrade allowed the grantee to use a
            “RECEIPT” function to identify each program income transaction rather than
            recording amounts quarterly. The grantee should have their own internal
            accounting system, to make sure program income is spent before drawing down
            grant funds.

Comment 3   The comments indicate the grantee's responsiveness and willingness to implement
            corrective actions by either supporting or repaying the unsupported costs.

Comment 4   The grantee's comments are responsive to improved procedures for its
            disbursement review and approval process. The grantee's procedures lacked the
            ability to test the expenses before draws were approved because it did not require
            its subgrantees to submit any supporting documents. The comment to conduct
            additional monitoring to include testing a significant number of expenses prior to
            program close-out, shows its willingness to better assure that program expenses
            are supported and eligible.

            Our selection of expenses for testing was non-statistical and the audit results
            cannot be projected; therefore, it is incorrect for the grantee to project only .006
            percent of expenditures are in question.




                                              21
